OIG Investigative Reports, New Orleans, Louisiana - 08/24/2011 - Four Former Jefferson Parish Public School Board Employees Plead Guilty in Scheme to Embezzle Education Program Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Eastern District of Louisiana
FOUR FORMER JEFFERSON PARISH PUBLIC SCHOOL BOARD EMPLOYEES PLEAD GUILTY
IN SCHEME TO EMBEZZLE EDUCATION PROGRAM FUNDS
August 24, 2011
KIM WILLIAMS, age 34, a resident of New Orleans, Louisiana; AMANDA JACKSON, age 55, and DANAY JACKSON, age 33, both residents of Harvey, Louisiana, each pled guilty today in federal court before U. S. District Judge Ivan L.R. Lemelle to one count of conspiring to commit federal program fraud while employed by Jefferson Parish Public School System (JPPSS). TRACY WALKER, age 41, a resident of Westwego, Louisiana, pled guilty to one count of misprision of a felony, announced U. S. Attorney Jim Letten. GISELLE SAVOY, a co-defendant, pled guilty to one count of conspiring to commit federal program fraud on July 14, 2011.
According to court documents, from February 2007 through September 2009, WILLIAMS and SAVOY submitted fraudulent payroll documents for themselves and co-defendants, AMANDA JACKSON, DANAY JACKSON and TRACY WALKER so that defendants received approximately $132,000.00 in supplemental pay and stipends from JPPSS' Louisiana Education Assessment Program (LEAP), Graduate Exit Examination (GEE) tutoring fund, Education Excellent (EE) fund as well as a general fund. The defendants were all employees of JPPSS but none were certified teachers or qualified to perform tutoring, testing, or remediation for JPPSS.
Speaking to today's convictions, United States Attorney Jim Letten stated:
"Today's convictions of four individuals who now stand convicted of involvement in the theft of funds from the Jefferson Parish Public School System is continuing, compelling evidence of our determination to fiercely protect the rights of our children to a quality public education free from corruption and abuse. As this investigation continues, we will continue on our course of zero tolerance for any public corruption, and for any abuses involving our educational system. My special thanks go out to our partners with the United States Secret Service, United States Department of Education, the Louisiana Electronic and Financial Crimes Task Force and the Jefferson Parish Sheriffs' Office."
Upon sentencing, scheduled for December 7, 2011 before Judge Ivan L.R. Lemelle, KIM WILLIAMS, AMANDA JACKSON and DANAY JACKSON, each face a maximum term of imprisonment of five (5) years, a $250,0000 fine, and three (3) years of supervised release following imprisonment. TRACY WALKER faces a maximum term of imprisonment of three (3) years, a $250,0000 fine, and one (1) year of supervised release following imprisonment. GISELLE SAVOY is scheduled to be sentenced on October 12, 2011.
The case was investigated by U. S. Secret Service, U.S. Department of Education, the Louisiana Electronic and Financial Crimes Task Force and the Jefferson Parish Sheriffs' Office. The case is being prosecuted by Assistant U. S. Attorney Julia K. Evans.
(Download Factual Basis )
Top
Printable view
Last Modified: 08/31/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov